SIGAR                                        Special Inspector General for
                                              Afghanistan Reconstruction




                                                        SIGAR 14-84 Audit Report




             Afghan National Security Forces: Actions
             Needed to Improve Weapons Accountability




                                                                     JULY

                                                                2014
SIGAR 14-84-AR/ANSF Weapons Accountability
                                                      July 2014



SIGAR
                                                      Afghan National Security Forces: Actions Needed to Improve Weapons
                                                      Accountability

                                                      SIGAR 14-84 Audit Report
Special Inspector General for                         WHAT SIGAR FOUND
Afghanistan Reconstruction                            The U.S. Department of Defense (DOD) maintains information on weapons
                                                      purchased for the ANSF in two primary Information systems: the Security
WHAT SIGAR REVIEWED                                   Cooperation Information Portal (SCIP) and the Operational Verification of
The U.S. Department of Defense (DOD)                  Reliable Logistics Oversight Database (OVERLORD). SCIP is used by DOD
supplies weapons to the Afghan National               personnel to track the shipment of weapons from the United States, while
Security Forces (ANSF) as part of                     OVERLORD is used for tracking the receipt of weapons in Afghanistan.
international efforts to train and equip the          Errors and discrepancies often occur because these two systems are not
Afghan National Army and the Afghan                   linked to each other and require manual data entry. When SIGAR compared
National Police. DOD has provided over                the data in the two systems, it found that the databases did not always
747,000 weapons and auxiliary equipment               match; some records were duplicated, and some records were incomplete.
valued at approximately $626 million to the           The discrepancies listed below show examples of where DOD was not in
ANSF since 2004. Included in these figures            compliance with its internal operating procedures and accountability
are over 465,000 small arms—weapons such              requirements, and where missing information could result in the inability to
as rifles, pistols, machine guns, grenade             locate weapons. Specifically, SIGAR found that:
launchers, and shotguns. The Combined                     Of the 474,823 total serial numbers recorded in OVERLORD, 43
Security Transition Command-Afghanistan                    percent, or 203,888 weapons, had missing information and/or
(CSTC-A) is the primary DOD component                      duplication.
responsible for overseeing the delivery and               24,520 serial numbers in OVERLORD and 22,806 weapon serial
transfer of weapons to the ANSF. It works                  numbers in SCIP were repeated two or three times, meaning that there
with the Defense Security Cooperation                      are duplicate records of weapons shipped and received.
Agency (DSCA) to acquire these weapons.                   OVERLORD contained 50,304 serial numbers with no shipping or
Section 1225 of the National Defense                       receiving dates, and SCIP contained 59,938 serial numbers with no
Authorization Act for Fiscal Year 2010, Pub.               shipping or receiving dates.
L. No. 111-84, requires DOD to implement a
                                                      While DOD uses SCIP and OVERLORD to account for weapons it purchases
program to provide for the registration and
                                                      and transfers to the ANSF, the Afghan National Army (ANA) tracks weapons
monitoring of defense articles transferred to
                                                      using an automated inventory management system called Core Inventory
Afghanistan and Pakistan. DOD is also
                                                      Management System (CoreIMS). However, Combined Security Transition
responsible for the oversight and
                                                      Command-Afghanistan (CSTC-A) Security Assistance Office (SAO) officials
accountability of these weapons after they
                                                      stated that the information contained in CoreIMS is incomplete and cannot
are transferred to the ANSF.
                                                      be relied upon for accurate information. CSTC-A SAO officials concluded
This audit focuses on DOD’s procedures to             that this is due, in part, to the ANA not entering information correctly into
account for weapons provided to the ANSF.             the system. A 2008 report by the DOD Inspector General also raised
Specifically, we (1) evaluated the controls           concerns about the ANA’s record keeping process including CoreIMS. As for
used to account for weapons before DOD                weapons provided to the Afghan National Police (ANP), there is no
transfers title to the ANSF, (2) evaluated the        standardized or automated system to account for them. Instead, the ANP
controls used to account for weapons after            uses a combination of hard copy documents, handwritten records, and
DOD transfers title to the ANSF, and (3)              some Microsoft Excel spreadsheets to maintain inventory records.
determined the extent to which the number
                                                      To test the accuracy of weapons data in the various inventory systems and
of weapons provided by DOD and coalition
                                                      hard copy sources used by the ANSF, SIGAR conducted physical inventory
partners reflects current ANSF requirements
                                                      testing at four ANSF depots and storage facilities in Afghanistan. Although
and changes in ANSF personnel levels.
                                                      testing at these locations was challenging for a variety of reasons, including
                                                      the lack of inventory information, SIGAR was able to assess, to some
                                                      degree, the reliability of information maintained at these sites.
                                                          At the ANA Central Supply Depot, SIGAR found that 551 weapons
                                                           documented on the Afghan inventory record, called a “property book,”

       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
      did not match a physical count of the inventory.
     At the ANP 22 Bunkers Depot—the national depot for the ANP—
      SIGAR was unable to conduct a fully inclusive inventory test;
      however, SIGAR’s limited testing verified the quantities of
      weapons in each storage container, and SIGAR did not find
      discrepancies in the weapons it was able to inspect.
     At the ANA Kandahar Regional Military Training Center, SIGAR
      was unable to obtain a complete inventory record, which limits
      the assurance of accurate and reliable weapons accountability.
     At the 1st Afghan National Civil Order Police Garrison Facility,
      SIGAR could only conduct a limited physical inspection of the
      inventory because no inventory list was available. No
      discrepancies were noted in the limited weapons inspection.
This poor record keeping by the ANA and ANP limits DOD’s ability to
monitor weapons after transfer to the ANSF, as required by the
National Defense Authorization Act for Fiscal Year 2010.
The U.S. and coalition partners provide weapons to the ANSF
according to the quantity and type agreed upon in the Tashkil—the
Afghan government’s official list of requirements for the ANSF. The
Tashkil has changed over time, with some weapons requirements
increasing and others decreasing. SIGAR found that, as of
November 2013, more than 112,000 weapons provided to the
ANA and ANP exceed requirements in the current Tashkil. In some
cases, excess weapons were provided because ANSF                                Storage crates at the ANA Central Supply Depot, Kabul.
requirements changed. For example, the ANA has 83,184 more                      Source: SIGAR, August 27, 2013.
AK-47s than needed because, prior to 2010, DOD issued both
NATO-standard weapons, such as M-16s, and non-standard
weapons, such as AK-47s. After 2010, DOD and the Afghan                         This issue will be compounded as the number
Ministry of Defense determined that interoperability and logistics              of ANSF personnel decreases to lower levels in
would be enhanced if the ANA used only NATO standard weapons.                   the coming years. Without confidence in the
Subsequently, the requirement was changed. However, no                          Afghan government’s ability to account for or
provision was made to return or destroy non-standard weapons,                   properly dispose of these weapons, SIGAR is
such as AK-47s, that were no longer needed. DOD officials told                  concerned that they could be obtained by
SIGAR that they do not currently have the authority to recapture or             insurgents and pose additional risks to Afghan
remove weapons that have already been provided to the ANSF.                     civilians and the ANSF.



    WHAT SIGAR RECOMMENDS
    To account for weapons procured for and transferred to the ANSF, SIGAR recommends that the Commanding General,
    CSTC–A, in coordination with the Director, DSCA, (1) perform a full reconciliation of OVERLORD and SCIP and correct any
    data errors identified between the two systems within 6 months. SIGAR also recommends that the Commanding General,
    CSTC-A (2) work with the ANSF to complete a 100 percent inventory check of small arms transferred to the ANSF, and (3)
    determine what action can be taken to either recover or destroy U.S. and coalition-provided weapons that the U.S. and
    Afghan governments jointly identified as being in excess of the current Afghan requirements as stated in the Afghan Tashkil,
    and develop a plan that addresses the potential future excess of small arms if the ANSF force strength is reduced.
    In commenting on a draft of the report, DOD concurred with SIGAR’s first recommendation and partially concurred with the
    second and third recommendations. DOD’s proposed actions are responsive to SIGAR’s recommendations. DOD’s
    comments, along with SIGAR’s response, are reproduced in appendix II of this report.




       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 18, 2014


The Honorable Charles T. Hagel
Secretary of Defense

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces-Afghanistan and
   Commander, International Security Assistance Force

Major General Kevin R. Wendel
Commanding General, Combined Security Transition Command-Afghanistan


This report discusses the results of SIGAR’s audit of the accountability of small arms provided to the
Afghan National Security Forces (ANSF). The audit found that improvement is needed in the controls for
accounting for weapons provided to the ANSF. We recommend that the Commanding General, Combined
Security Transition Command-Afghanistan, in coordination with the Defense Security Cooperation Agency
(1) perform a full reconciliation of OVERLORD and SCIP and correct any data errors identified between the
two systems within 6 months. SIGAR also recommends that the Commanding General, CSTC-A, (2) work
with the ANSF to complete a 100 percent inventory check of small arms transferred to the ANSF, and (3)
determine what action can be taken to either recover or destroy U.S. and coalition-provided weapons that
the U.S. and Afghan governments jointly identified as being in excess of the current Afghan requirements
as stated in the Afghan Tashkil, and develop a plan that addresses the potential future excess of small
arms if the ANSF force strength is reduced.

We received written comments on a draft of this report from DOD. DOD concurred with recommendation
one, and partially concurred with recommendations two and three. Although DOD only partially concurred
with recommendations two and three, we consider its proposed actions on these recommendations
responsive to the intent of the recommendations, and we will monitor DOD’s implementation of these
actions as part of our normal recommendation follow-up process. DOD’s comments have been
incorporated in the report, as appropriate, and are reproduced in appendix II.

SIGAR conducted this work under the authority of Public Law No. 110‐181, as amended; and the
Inspector General Act of 1978, as amended; and in accordance with generally accepted government
auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1

Incompatibility of Two Inventory Systems Limits DOD’s Ability to Account for Weapons Before They Are
Transferred to the ANSF .............................................................................................................................................. 4

Poor ANSF Recordkeeping Hinders DOD’s Ability to Monitor Weapons After They Are Transferred to the ANSF .. 6

Because of Changing Requirements, DOD Has Provided the ANSF Weapons that Exceed Current and Potential
Future Requirements ................................................................................................................................................ 11

Conclusion.................................................................................................................................................................. 12
Recommendations .................................................................................................................................................... 13

Agency Comments ..................................................................................................................................................... 13

Appendix I - Scope and Methodology ....................................................................................................................... 14

Appendix II - Comments From the Department of Defense .................................................................................... 16

Appendix III - Acknowledgments ............................................................................................................................... 20


TABLES

Table 1 - Duplicate and Missing Information Identified in OVERLORD ..................................................................... 5

Table 2 - Discrepancies Found in Weapons Inventory Testing at Central Supply Depot ......................................... 8

Table 3 - Primary Weapon Overages Provided to the ANSF .................................................................................... 11


FIGURES

Figure 1 - DOD Process for Providing Weapons to the ANSF .................................................................................... 3




SIGAR 14-84-AR/ANSF Weapons Accountability                                                                                                                            Page i
ABBREVIATIONS

            ANA                      Afghan National Army

            ANP                      Afghan National Police

            ANSF                     Afghan National Security Forces
            CoreIMS                  Core Inventory Management System

            CSTC-A                   Combined Security Transition Command-Afghanistan

            DOD                      Department of Defense
            DSCA                     Defense Security Cooperation Agency

            FMS                      Foreign Military Sales

            NATO                     North Atlantic Treaty Organization

            OVERLORD                 Operational Verification of Reliable Logistics Oversight Database

            SCIP                     Security Cooperation Information Portal

            SAO                      Security Assistance Office




SIGAR 14-84-AR/ANSF Weapons Accountability                                                               Page ii
The U.S. Department of Defense (DOD) provides weapons to the Afghan National Security Forces (ANSF)—
consisting of the Afghan National Army (ANA) and the Afghan National Police (ANP)—as part of the coalition’s
efforts to develop them into a force capable of independently providing security for the Afghan people. As of
December 30, 2013, DOD had provided over 747,000 weapons and auxiliary equipment valued at
approximately $626 million to the ANSF. Included in these figures are over 465,000 small arms1 provided as
of November 13, 2013. DOD is responsible for accounting for these weapons both before and after they are
transferred to the ANSF. As the drawdown of U.S. and coalition forces continues and weapons are transferred
to the ANSF, U.S. and coalition partners face the critical task of assisting the ANSF to develop weapons
requirements and to improve their ability to oversee and account for how those weapons are used.
This audit focuses on DOD procedures to account for and safeguard weapons provided to the ANSF.
Specifically, we (1) evaluated the controls used to account for weapons before DOD transfers title to the ANSF,
(2) evaluated the controls used to account for weapons after DOD transfers title to the ANSF, and
(3) determined the extent to which the number of weapons provided by DOD and coalition partners reflects
current ANSF requirements and changes in ANSF personnel levels.
To accomplish these objectives, we reviewed section 1225 of the National Defense Authorization Act for Fiscal
Year 2010, Pub. L. No. 111-84, and DOD standard operating procedures for receiving and transferring
weapons to the ANSF. We also reviewed Afghan Ministry of Defense guidance on inventory and weapons
accountability procedures. Additionally, we reviewed available data and documentation concerning the number
of weapons authorized for the ANSF and DOD’s requirements for overseeing those weapons after they are
transferred to the ANSF. To determine whether DOD could account for the transferred weapons, we analyzed
weapons shipment information provided by DOD. We tested the accuracy and completeness of ANSF
information at the ANSF national depots and at two additional weapons storage facilities in Afghanistan.
Appendix I contains a more detailed discussion of our scope and methodology. We conducted our audit work in
Washington, D.C., and in Kabul and Kandahar, Afghanistan, from May 2013 through June 2014, in accordance
with generally accepted government auditing standards.


BACKGROUND

The Combined Security Transition Command-Afghanistan (CSTC-A) is the primary DOD component responsible
for overseeing the delivery and transfer of weapons to the ANSF.2 It works with the Defense Security
Cooperation Agency (DSCA)3 to acquire these weapons. Weapons sold to other countries—and paid for by those
countries—are guided by the U.S. Foreign Military Sales program 4 and are generally referred to as “FMS cases.”
However, since weapons purchased for the ANSF are paid for through the Afghanistan Security Forces Fund,
rather than by the Government of Afghanistan, these weapon purchases are referred to as “pseudo-FMS.” In
these cases, DOD retains title and physical custody of weapons until final transfer to the ANSF. Within CSTC-A,
the Security Assistance Office-Afghanistan (SAO) is responsible for providing oversight and accountability of


1Small arms include rifles, pistols, machine guns, grenade launchers, and shotguns. Small arms are referred to as
“weapons” for purposes of this report.
2In response to the requirements of section 1225 of the National Defense Authorization Act for Fiscal year 2010, DOD
established CSTC-A as the program office required to maintain and enforce the maintenance of auditable records for the
serialization of weapons, documentation of origin, shipping records, and the end use monitoring of all weapons in
Afghanistan.
3DSCA is the central agency that coordinates global security cooperation programs, funding, and efforts across the Office
of Security Defense, Joint Staff, State Department, Combatant Commands, the services, and U.S. industry. DSCA is the
primary entity within DOD that is responsible for carrying out policy, processes, training, and financial management
necessary to execute security cooperation between the United States and other countries.
4 Under FMS, a foreign government identifies requirements for military-related items or services and then purchases it from
the U.S. government.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                          Page 1
weapons provided to the ANSF and is responsible for monitoring their end use by the ANSF. Monitoring the end
use of weapons includes a security assessment, evaluation of the weapons storage facilities and procedures, a
documentation assessment, and any additional observations and recommendations. CSTC-A SAO’s End Use
Monitoring office accounts for weapons (as well as other equipment) after title has been transferred to the
ANSF.
DOD maintains information on weapons purchased for the ANSF in two primary information systems: the
Security Cooperation Information Portal (SCIP)5 and the Operational Verification of Reliable Logistics Oversight
Database (OVERLORD).6 Prior to shipment to Afghanistan, military departments7 tasked to procure weapons for
the ANSF enter information into SCIP, such as the serial number for each weapon, its description, FMS case
identifier, requisition number, and shipping date. The military departments also provide the data in Microsoft
Excel spreadsheets to the CSTC-A SAO office. When the weapons arrive in Afghanistan, CSTC-A SAO personnel
enter this information into OVERLORD. CSTC-A and ANSF personnel then escort the weapons to Afghan
national depots. At the ANSF depots, CSTC-A SAO personnel conduct a 100-percent serial number check
against the data received from the military departments and verify the information in OVERLORD.
To document the formal transfer of weapon title, CSTC-A SAO and ANSF personnel sign a transfer and receipt
document called Ministry of Defense Form 9─used by both the Ministry of Defense and the Ministry of
Interior—acknowledging the quantity and type of weapons transferred. The ANSF then track the transferred
weapons using a combination of paper inventory records and automated systems. The ANA uses the computer-
based Core Inventory Management System (CoreIMS), a U.S.-procured web-based inventory management
system, to track weapons for its forces, as well as other Ministry of Defense offices and components. Figure 1
illustrates the roles of organizations and databases involved in the fielding of weapons to the ANSF.




5   The SCIP is a web database developed by DSCA to comply with registration and tracking requirements of FMS data.
6The OVERLORD system is a database developed by CSTC-A to comply with registration and tracking requirements of all
small arms transferred to the ANSF.
7The DOD military departments are: the Department of the Air Force, the Department of the Army, and the Department of
Navy.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                        Page 2
Figure 1 - DOD Process for Providing Weapons to the ANSF




Source: SIGAR analysis of weapons procurement process.

Requirements for DOD to account for weapons provided to the ANSF are set forth in section 1225 of the
National Defense Authorization Act for Fiscal Year 2010, Pub. L. No. 111-84, which directs DOD to implement
a program to provide for the registration and monitoring of defense articles transferred to Afghanistan and
Pakistan. The requirements of section 1225 are similar to those contained in section 1228 of the National
Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 110- 181, which also directed DOD to implement a
program of registration and monitoring of defense articles provided to Iraq’s security forces. According to CSTC-
A standard operating procedures, Congress included such requirements in the various National Defense
Authorization Acts because several reports from federal oversight agencies showed weaknesses in DOD’s
process for tracking weapons. For example, the Government Accountability Office reported in 2009 that DOD
did not provide clear guidance to U.S. personnel on accountability procedures for the management, transfer,
and storage of weapons obtained for the ANSF, resulting in significant lapses in accountability. 8 The
Government Accountability Office concluded that the weapons CSTC-A provided to the ANSF were at serious
risk of theft or loss due to the lack of complete inventory records for an estimated 36 percent of weapons
procured and shipped to Afghanistan from 2004 through 2008; inventory records failing to account by
weapons serial numbers, location and disposition; and the lack of training and mentoring of ANSF personnel.
Other reports from the Government Accountability Office and the DOD Inspector General also noted the lack of
proper accountability of weapons in Iraq.9
The quantity and type of weapons provided to the ANSF have changed over the years to reflect the changes in
ANSF force strength.10 The ANSF force strength is agreed upon and documented in the Tashkil─the Afghan
government’s official list of requirements for the ANSF. At the May 2012 Chicago Summit, the United States,
North Atlantic Treaty Organization (NATO) allies, other coalition partners, and the Afghan government
announced a surge level of 352,000 ANSF personnel, with a gradual reduction to a size of 228,500 personnel
by 2017.



8 GAO-09-267, Lack of Systematic Tracking Raises Significant Accountability Concerns about Weapons Provided to the
Afghan National Security Forces, January 2009.
9 GAO-07-711, DOD Cannot Ensure That U.S.-Funded Equipment Has Reached Iraqi Security Forces, July 2007. See also

DODIG SPO-2008-001, Assessment of the Accountability of Arms and Ammunition Provided to the Security Forces of Iraq,
July 2008.
10   Since 2006, the Afghan government and coalition partners have agreed to several increases to ANSF force strength.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                         Page 3
INCOMPATIBILITY OF TWO INVENTORY SYSTEMS LIMITS DOD’S ABILITY TO
ACCOUNT FOR WEAPONS BEFORE THEY ARE TRANSFERRED TO THE ANSF

DOD’s two weapons inventory systems—SCIP and OVERLORD—are not linked to each other, and our review
identified missing, duplicate, and incomplete information within these two systems. Section 1225 of the
National Defense Authorization Act for Fiscal Year 2010 requires DOD’s defense articles registration program
to include “(1) A detailed record of the origin, shipping, and distribution of defense articles and defense
services transferred to—(A) the Government of Afghanistan...; and (2) The registration of the serial numbers of
all small arms to be provided to—(A) the Government of Afghanistan….” CSTC-A has incorporated these
requirements into its standard operating procedures, requiring its SAO office to maintain auditable records of
the defense articles and services transferred to Afghanistan. CSTC-A has also required its SAO office to
document and maintain plans for its end use monitoring of all weapons in Afghanistan.
We reviewed available weapons shipment dates to compile a list of weapons that would have been shipped
after February 2010—the date CSTC-A incorporated the Act’s requirements for maintaining an inventory by
serial number in their standard operating procedures. Our analysis of all weapons data revealed that:
         OVERLORD was missing information concerning when 50,304 weapons were shipped out of the U.S.
          or when they were received by CSTC-A in Afghanistan. OVERLORD had serial numbers for 2,461
          weapons that were entered into the database two or more times, which resulted in duplicative
          records.
         14,822 serial numbers that were required to be documented in OVERLORD did not have
          corresponding records in SCIP.
         Of the 474,823 total serial numbers recorded in OVERLORD, 203,888 weapons (43 percent) were
          missing information and/or were duplicative.
         SCIP contained 59,938 serial numbers with no shipping or receiving dates.11
         22,806 serial numbers in SCIP and 24,520 serial numbers in OVERLORD were repeated two or three
          times.
         410,911 (87percent) of the 474,823 data entries we reviewed in OVERLORD did not contain a title
          transfer date.12


This incomplete data hindered our ability to determine which shipments were required to comply with the 2010
requirement that DOD establish and carry out a weapons registration program for all small arms transferred to
the ANSF.13
Table 1 illustrates some of the typical data discrepancies we identified. For example, table 1 shows that
weapon serial number DX2383 is used to identify two different weapons, and does not have a Material
Inspection and Receiving Report date used by DOD to confirm receipt of contracted supplies.14 Table 1 also
shows other examples of duplicate serial numbers and missing shipping dates in OVERLORD. Our analysis
indicates that these errors are due to the same serial number being erroneously assigned to two weapons or
other user input errors. For example, documentation provided by DSCA shows that there are two different
weapons in Afghanistan with serial number 178203. There are also approximately 6,000 remaining serial
numbers in SCIP which may or may not be user input errors. According to DSCA, 8,401 erroneous entries have



11 The discrepancy is due, in part, to military departments incorrectly entering information into SCIP and CSTC-A personnel
in Afghanistan not fully reconciling the data sent by the military departments when entering information into OVERLORD.
12When we asked CSTC-A SAO about the missing data, the officials stated that transfer documents were currently being
entered into the system at the ANA and ANP national depots.
13CSTC-A’s standard operating procedure requires the tracking of weapons by serial number starting in February 2010.
14The Material Inspection and Receiving Report (DD Form 250) is the DOD form required by most contracts to confirm
receipt of supplies or services.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                           Page 4
been identified and removed from SCIP and OVERLORD thus far, and DSCA is working to resolve the remaining
discrepancies.

Table 1 - Duplicate and Missing Information Identified in OVERLORD




Source: SIGAR analysis of CSTC-A inventory system.



We determined that the SCIP database was missing weapons information due to poor record keeping that
occurred by the military departments while they were procuring the weapons in the United States. We
determined that the OVERLORD system was missing weapons information due to poor record keeping when
the weapons were received by CTSC-A in Afghanistan.
We notified CSTC-A SAO of these data discrepancies in OVERLORD, and officials from that office stated they
are updating the system to reflect all available information. Also, in January 2014, we notified DSCA of the
discrepancies and missing information identified during our analysis of SCIP. We provided DSCA officials with
detailed spreadsheets highlighting what information was missing, including shipping dates of weapons sent to
Afghanistan and duplicate serial numbers found in the information system. In response, DSCA officials have
worked to identify and provide the missing information and update the information in SCIP. According to DSCA
officials, they have been addressing the information discrepancies with the appropriate military departments
and have made improvements in the reliability of the SCIP information system. As of March 2014, DSCA
officials stated they have been able to reduce the number of discrepancies between SCIP and OVERLORD from
14,822 to 1,136, and duplicate serial numbers in SCIP from 22,806 to 6,004.
The discrepancies and gaps in the information contained in SCIP and OVERLORD limit CSTC-A’s visibility and
accountability of the weapons purchased and transferred to the ANSF. CSTC-A officials stated they are in the
process of upgrading the ANSF’s CoreIMS system to make it compatible with OVERLORD, with the hope that
this compatibility will result in additional oversight of the weapons after they are transferred to the ANSF.
However, even as CSTC-A SAO continues to update the OVERLORD system in order to adequately catalog all
small arms delivered to Afghanistan, CSTC-A SAO is unable to accurately track the distribution of small arms
transferred to Afghan custody, which could affect its ability to conduct end use monitoring as required by the
2010 National Defense Authorization Act.




SIGAR 14-84-AR/ANSF Weapons Accountability                                                                Page 5
POOR ANSF RECORDKEEPING HINDERS DOD’S ABILITY TO MONITOR
WEAPONS AFTER THEY ARE TRANSFERRED TO THE ANSF

ANSF Does Not Have an Adequate Record Keeping System for Tracking DOD and
Coalition-Provided Weapons at Supply Depots and Fielded Units
CSTC-A SAO is required by section 1225 of the National Defense Authorization Act for Fiscal Year and its own
standard operating procedures to monitor the end use of weapons transferred to the Afghan government.
However, gaps in weapons monitoring indicate CSTC-A SAO has not complied with this requirement. CSTC-A
SAO has deployed U.S. military advisors and hired contractors to help the ANSF establish and implement
weapon accountability procedures and automated inventory management systems.
Current ANSF records do not adequately provide accountability of all weapons transferred by the United States
and the coalition, and CSTC-A has identified weaknesses in the ANSF’s ability to safeguard and account for
weapons. As a result, U.S. and coalition-provided weapons are at risk of theft, loss, or misuse. The CoreIMS is a
commercial, off-the-shelf inventory software system that was placed into service in 2006 through a U.S.-funded
contract. It was intended to provide the Afghan Ministry of Defense and subordinate ANA units with visibility
over their inventories. Initially, ANA and CSTC-A personnel did not input weapon serial numbers into the system.
However, in 2007, ANA and CSTC-A personnel began including weapon serial numbers and retroactively
entered this information into CoreIMS in an attempt to create a more comprehensive database.
In a 2008 report by the DOD Inspector General, concerns were raised about the way in which ANA and CSTC-A
personnel were entering data into CoreIMS.15 During our fieldwork, CSTC-A SAO officials stated that data
contained in CoreIMS is incomplete and cannot be relied upon for accurate information. CSTC-A SAO officials
said that this was due, in part, to weapon information not being entered into the system. CSTC-A personnel
also stated that the system was not designed to account for weapons, and additional training for ANA
personnel is required for them to use the system as the inventory system of record.
Due to data entry and connectivity problems with CoreIMS, the ANA supplements its weapons inventory data
with hard copy information. For example, the ANA maintains property books 16 for weapons on-site, but
individual weapon serial numbers are not included in these property books.
With regard to the ANP, it currently has no standardized or automated system to account for weapons. Per
CSTC-A officials, the record accounting system called the “Universal Listing of Transactions for Record
Accounting” has been under development since 2010 for ANP depot inventories, but the system has yet to be
fielded as of the time of our audit report, and DOD has not determined an implementation date. The ANP
instead rely on a combination of hard copy, hand written records, and some Microsoft Excel spreadsheets to
maintain inventory records.
According to CSTC-A officials, efforts to develop the capabilities of ANSF personnel to manage the central
depots have been hindered by the lack of basic education or skills among ANSF personnel and frequent
turnover of Afghan staff.


Inventory Inspections at ANSF Depots Show Missing Weapons
We identified weapon inventory discrepancies during our inventory tests and site visits. We conducted physical
inventory testing at four ANSF facilities in Afghanistan: the ANA Central Supply Depot, ANA Kandahar Regional


15DODIG SPO-2009-001 Assessment of Arms, Ammunition, and Explosives Control and Accountability; Security Assistance;
and Sustainment for the Afghan National Security Forces, October 24, 2008.
16The property book is a formal set of materiel accounting records and files maintained at the user level. It is used to
record and account for all equipment and other specially designated materiel issued to that user.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                             Page 6
Military Training Center, the ANP National Supply Depot,17 and the 1st Afghan National Civil Order Police
Garrison Facility. Prior to conducting our site visits, we requested a record of the current inventory expected to
be at each location. CSTC-A personnel stated that U.S. inventory systems SCIP and OVERLORD did not provide
current locations of individual weapons in the Afghan logistics system and that only CoreIMS or Afghan
property books could provide the current inventory for each location. In the absence of comprehensive,
consolidated inventory data, we retrieved current inventory records at each location visited, selected serial
numbers from these inventory records, and attempted to locate each weapon within that storage location.18
Additionally, we collected serial numbers from a judgmental sample of actual weapons stored at each facility
and later compared those numbers to the CoreIMS system or the hard copy records provided at each location.
At each facility, inventory testing was challenging due to the lack of reliable weapon inventories, time
constraints, security conditions, disorganized weapon storage containers, and the lack of access to portions of
ANSF-controlled facilities. Additionally, property books maintained by the ANSF did not include a serial number
inventory of the weapons at each facility and automated records were incomplete. The following details our site
visits at each facility.

ANA Central Supply Depot
At the Central Supply Depot—the ANA national depot controlled and managed by Afghans with the assistance of
U.S. advisors—we requested a current inventory for that location, but neither CSTC-A nor the ANA personnel
could provide one. We also reviewed the Afghan property book, but we found that it only maintained totals for
each weapon type, rather than individual listings of weapons by serial number. Instead, the CoreIMS contractor
provided a list of 1,700 serial numbers for various weapons types he indicated should be at the ANA Central
Supply Depot. We then inspected the arms room where weapons are maintained at the ANA Central Supply
Depot and attempted to locate 10 weapons. However, due to the limited time we were able to remain at the
facility, we were only able to verify that two of the provided serial numbers were actually present at the depot.
We also performed an additional inventory test at the ANA Central Supply Depot in which we recorded the total
number of weapons for each weapons type and selected 1 percent of the weapons for that weapon type
(rounding up to the nearest ten). For example, the property book indicated that there were 939 M16-A2 rifles
maintained at that facility, so we selected 10 of the weapons in the facility (1 percent of 939 rifles rounded to
10 rifles). To ease this attempted inventory test, we selected the most accessible weapons at the depot—for
example, those that were on top of the stacks or closest to the aisle in a row. In all, we collected 44 serial
numbers off of weapons of various types. We then compared those serial numbers to the data in the CoreIMS
system to determine if the weapon had been recorded appropriately. We determined that only 23 out of the 44
weapons were in the CoreIMS system.
Weapons are stored at the ANA Central Supply Depot in two controlled storage yards. However, ANA personnel
at the depot allowed us to conduct inventory testing at one of the two yards. In this yard, the property book
officer provided us the property book that maintains inventory by quantity. We reviewed the quantity of
weapons recorded in the ANSF property book and attempted to find those quantities in the supply depot.
Testing revealed the property book totals shown for 8 out of 11 weapon types did not accurately reflect the
amount of weapons on site. We were informed these weapons were either transferred from the depots to field
units, or new shipments had been received. We requested supporting documentation for the issuance or
receipt of those weapons and were referred to MOD [Ministry of Defense]-9 Title-Transfer forms. We requested
these transfer documents to verify the discrepancies but Afghan and CSTC-A personnel stated that hard copies
of these documents were not available and we were unable to review hardcopy documentation. Although we
made two trips to this depot, security conditions and time constraints impacted our ability to conduct


17The national ANP storage facility—also known as “22 Bunkers”—was under U.S. control at the time of our inventory
review.
18 A judgmental sample of weapons is where the auditor selects a sample of weapons to test based on their availability,
location, ability to access, and possible other factors.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                          Page 7
comprehensive testing. Table 2 shows the weapons reviewed and the discrepancies noted during the inventory
test.

Table 2 - Discrepancies Found in Weapons Inventory Testing at Central Supply Depot




Source: SIGAR Inventory Testing.

To conduct further testing, we returned to the ANA Central Supply Depot 3 days later. During this visit, we were
permitted to view weapons at the second storage yard, but ANSF personnel did not allow us to record weapon
serial numbers or identify them in the property book. As a result, we were unable to conduct inventory testing
at this second yard.

ANA Kandahar Regional Military Training Center
Prior to our site visit to the ANA Kandahar Regional Military Training Center, we requested a listing of all
weapons for that location, but CSTC-A was unable to provide such a list. There, weapons are stored in six
containers, one for each ANA company, and separate inventory listings are located inside each container. In
four containers, we planned to select individual weapons from the inventory lists and attempt to locate those
weapons in their storage locations. We also planned to conduct an additional inventory test by selecting actual
weapons from their storage locations, record their serial numbers, and check them against the inventory
records. Due to time and security constraints, we were only able to fully inspect storage containers for three
ANA companies and partially inspect a fourth. In total, we selected 39 weapons from the inventory records and
were able to locate all 39 in their appropriate storage locations. For our second inventory test, we selected 34
weapons from their storage locations and traced all 34 weapons back to the inventory records. Therefore, our
physical inspection did not reveal any discrepancies with the inventories of the four containers located at this
facility. However, by not having a comprehensive inventory of all weapons at the facility, we could not be fully
assured that the weapons provided to this facility had not been lost or stolen.

ANP 22 Bunkers Depot
We conducted inventory testing at the ANP’s National Supply Depot—also known as the ANP 22 Bunkers
Depot—in August 2013, with mixed results. At the time of our site visit, this depot was undergoing a “wall to
wall” inventory count with both Afghan and coalition personnel. This type of inventory is required before
responsibility of the facility can be transferred from U.S. control to the Afghan government. About 80 percent of
the inventory was completed at the time of our site visit. As noted earlier, the ANP does not have an inventory
system such as CoreIMS; however, the U.S. advisors and ANP maintained a combination of digitized and hand-
written records of serial numbers to account for weapons.




SIGAR 14-84-AR/ANSF Weapons Accountability                                                                Page 8
We first performed a test of 39 weapons selected from the combined digitized and hand-written records, which
contained over 19,000 serial numbers. We attempted to locate these weapons in their storage locations.
However, due to the limited amount of time we were able to spend at the facility, we were only able to find 26
of the 39 weapons. Our testing was made difficult by limitations in the records’ descriptions of the storage
locations within the containers. Specifically, some weapon locations within the containers were not recorded.
As a result, we were unable to conduct the full extent of inventory testing that we had planned. For example,
we had difficulty identifying specific pistols inside of the storage containers because the containers housed
thousands of pistols. We also collected serial numbers from 37 weapons and attempted to trace those serial
numbers back to the inventory records. In this case, we were able to verify that all 37 selected weapons were
recorded in the inventory records with no discrepancies.19

ANP 1st Afghan National Civil Order Police Garrison Facility
ANP’s 1st Brigade, Afghan National Civil Order Police is a smaller, special police unit located in Kabul. This
facility only had one container that stored weapons. However, a comprehensive inventory was not available for
this location and, as a result, we could not select serial numbers from a complete inventory and verify that
weapons were in their appropriate storage locations. The Afghan Commander provided us with what he
indicated was a partial hand-written listing of serial numbers for Kalashnikov rifles. We selected 10 weapons
from the partial inventory listing and attempted to locate these weapons in the storage container. We also
planned to conduct an inventory test by selecting 10 Kalashnikov rifles from the storage container, record their
serial numbers, and check them against the partial inventory listing. We were able to locate all 10 rifles from
the partial inventory listing in the storage container; however, we could not trace 5 of the 10 rifles selected
from the storage container back to the partial inventory listing. We recorded the serial numbers of 25
additional weapons we identified inside the container, but no inventory listing was available to perform our
planned tests.


Poor ANSF Records Limit Oversight under Current End Use Monitoring
Requirements
As part of our inventory testing, we attempted to follow CSTC-A’s end use monitoring procedures, but were
unable to complete our work due to a lack of weapon inventory listings for our test sites. CSTC-A SAO officials
conduct their monitoring responsibilities through formal and informal inspections. According to current CSTC-A
SAO policy,20 formal end use monitoring inspections are conducted by selecting at least 10 percent of multiple
weapon types from the total quantity of weapons listed in an ANSF unit’s property book and confirming those
weapons are on-hand, followed by selecting 10 percent of weapons on-hand and confirming they are properly
documented in the property book.
Informal end use monitoring inspections, which can be conducted by CSTC-A SAO personnel or any coalition
forces personnel, is accomplished in conjunction with other required security assistance duties by
documenting weapon types and serial numbers, as well as citing appropriate or inappropriate usage of
weapons as well as deficiencies in security practices and accountability processes. DOD Instruction 5105.38-
M Security Assistance Manual Chapter 8 require CSTC-A SAO to document end use monitoring on at least a
quarterly basis and maintain records for 5 years. Additionally, informal end use monitoring of small arms can
be reported in enhanced end use monitoring inspections,21 Compliance Assessment Visits,22 quarterly Lethal
Articles Visibility Reports,23 and other site visits.



19   The 37 weapons we selected were part of the portion of the “wall to wall” inventory that had already been completed.
20   CSTC-A SAO End Use Monitoring standard operating procedure, 29 September 2012.
21CSTC-A SAO performs enhanced end use monitoring for equipment which requires greater physical security and
accountability, like night vision devices.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                           Page 9
However, end use monitoring is complicated by a number of factors. For example, in some instances, ANSF
units either do not have property books, or their property books only contain the quantities of weapons without
accompanying serial numbers. Additionally, some end use monitoring reports show no indication of where a
weapon may be located at an ANA and ANP unit, or whether the total quantity of weapons located at a unit is
accurate according to what is authorized. Thus, a 10-percent inventory test cannot always be performed at
many locations.
In March 2010, end use monitoring inspectors reported that a CSTC-A official had tried to conduct a 100-
percent wall-to-wall inventory at the 2nd Forward Supply Depot in Kandahar the previous year with little
success. The report noted that the CSTC-A official was unable to verify how many weapons were being stored at
the facility. The end use monitoring report cited that more than 400 German pistols and numerous M4 rifles
and M9 pistols were inspected, but no serial numbers were recorded from the end use monitoring site visit.
In February 2012, CSTC-A officials inspected an ANP District Headquarters and reported that they inventoried
223 weapon serial numbers. According to the report, the ANP accountability officer informed the CSTC-A
officials that they had created the inventory of the weapons 3 days after they had received an inspection
notice. CSTC-A inspectors noted that loose pages of an unbound property book were provided inside plastic
bags and that tracking of all police weapons by serial number was impossible because serial number
information was not recorded in the property book. Additionally, the report states that any weapons that may
have been lost, missing, destroyed, or turned in for maintenance could not be accounted for because transfer
documents could not be produced.
Furthermore, in December 2012, CSTC-A officials reported that they inventoried approximately 20 percent of
weapons at an Afghan Uniformed Police District Headquarters. The report’s findings stated that the inspection
was limited due to the fact that end use monitoring personnel did not observe a “robust property book” that
contained serial numbers and, as a result, only six AK-47s were inspected. The CSTC-A official recommended
that the incoming end use monitoring team revisit the Afghan Uniformed Police District Headquarters in 3
months, but, according to CSTC-A SAO officials, as of December 2013, no re-inspection had occurred.
Our review of various end use monitoring reports found no indication that inspected serial numbers were being
cross-referenced against inventory information within OVERLORD. Cross-referencing serial numbers would
allow for the identification of discrepancies or missing weapons. Despite the existence of standard end use
monitoring procedures, the end use monitoring reports’ quality also varied based on the team conducting the
review. For example, some reports contained limited data, while others were very comprehensive. The
September 2012 end use monitoring standard operating procedures state that inspection reports, including all
equipment inventoried or inspected, should be used to update the OVERLORD database. Additionally, end use
monitoring inspections use Afghan-provided, on-site records, which are not verified and therefore provide
limited assurance that these records accurately reflect what is supposed to be stored at these sites. CSTC-A
officials are aware of this issue and indicated to us during our audit that they would update their end use
monitoring procedures to eliminate this weakness.
We also found that required end use monitoring reports were not completed. According to CSTC-A SAO officials,
end use monitoring reports are missing due to the separation of CSTC-A from the NATO Training Mission-
Afghanistan, when the sub-ministerial mentoring mission was transferred to the International Security
Assistance Forces Joint Command. These officials told us that no end use monitoring reports were conducted
in 2011. CSTC-A SAO officials also stated that, in some cases, CSTC-A Regional Commands have prevented
inspection field teams from fulfilling their end use monitoring tasks because of unstable security conditions


22“… the Office of the Secretary of Defense, through the Defense Security Cooperation Agency, may direct and lead a
compliance assessment team on a Compliance Assessment Visit to certify Afghanistan’s compliance with law, policy, and
government-to-government agreements.” NTM-A/CSTC-A 1225/1228 program standard operating procedure.
23 CSTC-A SAO provides Lethal Articles Visibility Reports to the Defense Security Cooperation Agency and Logistics Support
Activity on the last day of each quarter of the fiscal year with quantities, types, and serial numbers of all small and lethal
items transferred to Afghanistan.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                            Page 10
and limited availability of security forces at outlying facilities, as the field teams rely on local coalition force
protection assets for security. Therefore, while the end use monitoring standard operating procedures require
formal reports at a minimum of one per calendar quarter, our analysis of available reports found that reports
are missing from January 2011 to February 2012.


BECAUSE OF CHANGING REQUIREMENTS, DOD HAS PROVIDED THE ANSF
WEAPONS THAT EXCEED CURRENT AND POTENTIAL FUTURE REQUIREMENTS

Our analysis shows that, as of November 2013, more than 112,000 weapons were provided to the ANA and
ANP than were needed, according to the current Tashkil. Table 3 shows the type of weapons provided to the
ANSF, their requirements as stated in the current Tashkil, the total quantity of each type of weapon that has
been delivered, and the amount of weapons that exceed current requirements.

Table 3 - Primary Weapon Overages Provided to the ANSF




Source: SIGAR analysis of CSTC-A data.

Some of these excess weapons are the result of changing ANSF weapon requirements. For example, table 3
shows that the ANA has 83,184 AK-47s more than needed. The reason for this overage is that prior to 2010,
DOD issued both NATO standard and non-standard weapons.24 In 2010 DOD and the Afghan Ministry of
Defense determined that interoperability and logistics would be enhanced if the ANA used only NATO standard
weapons. Subsequently, the requirement was changed. However according to CSTC-A, no provision was made
to return non-standard weapons, such as AK-47s, that are no longer needed as a result of this decision to
supply only NATO standard weapons. CSTC-A officials stated they are working with the ANSF to have more than
11,029 AK-47s transferred to the ANP in order to fill shortages within the ANP. However, these officials do not
have plans for addressing the remaining 72,155 AK-47s that exceed the ANA’s current requirements because,
according to them, they do not have the ability to recapture or remove weapons that have previously been
provided to the ANSF.
Another reason that some weapon types exceed current requirements is the ANSF’s desire to obtain new
weapons, rather than repairing old ones. According to ANSF officials, many of the weapons currently in their
inventory are in need of repair and maintenance; new weapons are, thus, needed to replace those that are
damaged and unserviceable. For example, CSTC-A officials stated that the ANA identified 20,606 AK-47s and

24   NATO standard weapons include M16s and M4s, and non-standard include primarily AK-47s.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                   Page 11
the ANP identified 15,000 AK-47s as unserviceable and non-repairable. CSTC-A officials told us, however, that
unserviceable weapons will be properly disposed of and that they are working on a disposal process.
This problem of the ANSF having more weapons than needed is likely to be exacerbated as the number of
ANSF personnel decreases to lower levels in the coming years. Specifically, the current requirements in the
Tashkil are based on supporting the ANSF at a surge strength of 352,000 personnel. At the Chicago Summit
held in May 2012, the international community and Afghan government approved a preliminary model for a
reduction of the ANSF force strength by 123,500 personnel to a total of 228,500 by 2017.
CSTC-A officials told us they are still planning on providing weapons at the 352,000 personnel level because
that is the number stated in the current Tashkil. They further explained that the proposed reduction in force
of the ANSF discussed at the Chicago Summit is not yet official, and until reductions in ANSF personnel
becomes a formal directive, procurement of weapons continue to be based on the current Tashkil. However,
if the ANSF force strength is, indeed, reduced by 123,500 personnel by 2017, the requirements in the
Tashkil must also reflect this change. If not, the ANSF will have even more excess weapons.25


CONCLUSION

The National Defense Authorization Act for Fiscal Year 2010 required that DOD establish a program for
registering and monitoring the use of weapons transferred to the ANSF. However, controls over the
accountability of small arms provided to the ANSF are insufficient both before and after the weapons are
transferred. Accountability over these weapons within DOD prior to their transfer to Afghan ownership is
affected by incompatible inventory systems that have missing serial numbers, inaccurate shipping and
receiving dates, and duplicate records, that may result in missing weapons prior to transfer to the ANSF.
However, the problems are far more severe after the weapons are transferred to the ANSF. ANSF record-
keeping and inventory processes are poor and, in many cases, we were unable to conduct even basic inventory
testing at the ANSF facilities we visited. Although CSTC-A has established end use monitoring procedures, the
lack of adherence to these procedures, along with the lack of reliable weapons inventories, limits monitoring of
weapons under Afghan control and reduces the ability to identify missing and unaccounted for weapons that
could be used by insurgents to harm U.S., coalition, and ANSF personnel.
The problems posed by the lack of a fully functional weapons registration and monitoring program may
increase as plans to reduce the total number of ANSF personnel proceed. According to our analysis, the ANSF
already has over 112,000 weapons that exceed its current requirements. The scheduled reduction in ANSF
personnel to 228,500 by 2017 is likely to result in an even greater number of excess weapons. Yet, DOD
continues to provide ANSF with weapons based on the ANSF force strength of 352,000 and has no plans to
stop providing weapons to the ANSF. Given the Afghan government’s limited ability to account for or properly
dispose of these weapons, there is a real potential for these weapons to fall into the hands of insurgents,
which will pose additional risks to U.S. personnel, the ANSF, and Afghan civilians.




25Similarly, we have previously reported that CSTC-A’s plans for constructing ANSF facilities in Afghanistan had the
potential of creating excess capacity beyond the future requirements of the ANSF. See SIGAR Audit 13-18, Afghan National
Security Forces: Additional Action Needed to Reduce Waste in $4.7 Billion Worth of Planned and Ongoing Construction
Projects, September 13, 2013.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                      Page 12
RECOMMENDATIONS

To improve the accountability over small arms within DOD prior to the transfer of ownership of the weapons to
the ANSF, we recommend that the Commanding General, CSTC–A, in coordination with the Director, DSCA,
    1. Perform a full reconciliation of OVERLORD and SCIP and correct any data errors identified between the
       two systems within 6 months.
To improve the accountability over small arms after the transfer of ownership to the ANSF, we recommend that
the Commanding General, CSTC–A,
    2. Work with the ANSF to complete a 100 percent inventory check of small arms transferred to the ANSF.

    3. Determine what action can be taken to either recover or destroy U.S. and coalition-provided weapons
       that the U.S. and Afghan governments jointly identified as being in excess of the current Afghan
       requirements as stated in the Afghan Tashkil, and develop a plan that addresses the potential future
       excess of small arms if the ANSF force strength is reduced.


AGENCY COMMENTS

The Deputy Assistant Secretary of Defense, representing the DOD components to whom our recommendations
were addressed, provided written comments on a draft of this report. Those comments, along with our
responses, are reproduced in appendix II.
DOD concurred with the first recommendation to perform a full reconciliation of OVERLORD and SCIP and
correct any data errors identified between the two systems within six months. DOD stated that the
reconciliation effort is ongoing, and projected that it will complete the consolidation of all relevant data into the
SCIP within the six month timeframe called for in our recommendation.
DOD partially concurred with the second recommendation to require the ANSF to complete a 100 percent
inventory check of small arms transferred to them. Specifically, DOD stated that it does not have authority to
require the ANSF to perform the inventory check. While this may be the case, it is important that DOD monitors
the transferred weapons so that it complies with the requirements of section 1225 of in order not only to
meets the National Defense Authorization Act for Fiscal Year 2010 and ensures that only the ANSF uses the
U.S. government-funded weapons. DOD’s proposed plans to engage with key Afghan government leaders to
request the inventory be completed, and review the possibility of making future weapons transfers contingent
on completion of periodic inventory checks, are positive steps towards better weapons accountability.
Accordingly, we have modified the recommendation.
DOD also partially concurred with our third recommendation to determine actions that could be taken to either
recover or destroy weapons that are in excess of current Afghan requirements. DOD stated that it is the Afghan
government’s responsibility, not DOD’s, to determine if they have weapons in excess of their needs. However,
our recommendation does not suggest that DOD determine if the Afghan government has weapons in excess
of their current needs. Instead, we are recommending that DOD determine what action can be taken to recover
or destroy weapons that have already been identified jointly by the U.S. and Afghan governments as being
excess. The U.S. and Afghan governments develop and agree to weapons requirements in the Afghan Tashkil,
and have already identified excess weapons that would be candidates for disposal. We have modified the
recommendation to provide additional clarity. Nevertheless, we consider DOD’s assistance to the ANSF in
disposing of over 35,000 damaged AK-47s and in identifying additional weapons that could be returned to the
U.S. for disposition as positive steps to address this recommendation. We urge DOD to extend these efforts to
the remaining weapons that have been determined to be in excess of Afghanistan’s requirements as identified
in the current Tashkil.



SIGAR 14-84-AR/ANSF Weapons Accountability                                                                   Page 13
APPENDIX I - SCOPE AND METHODOLOGY

This audit focuses on the Department of Defense’s (DOD) accountability of small arms, hereafter referred to as
“weapons,” purchased with U.S. funds before and after transferring ownership to the Afghan National Security
Forces (ANSF). The objectives of this audit were to (1) evaluate the controls used to account for weapons
before DOD transfers title to the ANSF, (2) evaluate the controls to account for weapons after DOD transfers
title to the ANSF, and (3) determine the extent to which the number of weapons provided by DOD and coalition
partners reflects current ANSF requirements and changes in ANSF personnel levels. We examined prior DOD
Office of Inspector General audit reports on the accountability of arms, ammunition, and explosives provided to
the ANSF,26 weapons accountability at an ANA national depot,27 and a Government Accountability Office report
on the tracking of weapons provided to the ANSF.28 When we initiated this audit, the Army Audit Agency was
conducting a related audit evaluating the accountability controls over ammunition items and the effectiveness
of decisions regarding their movement and disposition. To avoid duplication of effort, we limited the scope of
our audit objectives to small arms. We reviewed foreign military sales and Combined Security Transition
Command-Afghanistan (CSTC-A) data from 2004 through 2013.
To assess the procedures for the accountability of weapons procured by DOD to arm the ANSF, and the
visibility and controls in place for the oversight of weapons after being provided to the ANSF, we reviewed
relevant laws, U.S. Foreign Military Sales guidance, CSTC-A standard operating procedures, Afghan Ministry of
Defense and Ministry of Interior guidance, and interviewed officials from the Defense Security Cooperation
Agency (DSCA), U.S. Army Security Assistance Command, Army Contracting Command, and the CSTC-A Security
Assistance Organization-Afghanistan (SAO). We analyzed available CSTC-A end use monitoring reports and
evaluated the reports based on CSTC-A standard operating procedures. We also conducted site inspections at
national and regional weapon depots. To determine which ANA and ANP depots to visit, we used guidance
provided to us by CSTC-A that considered security and available force protection assets in an area and the flow
of small arms from the national weapons supply depot to the end user. We selected the ANA Central Supply
Depot and the ANP 22 Bunkers Depot because they are national depots where all weapons are currently
received and processed for distribution throughout Afghanistan. We selected the ANA Regional Military Training
Center in Kandahar and the ANP 1st Brigade, Afghan National Civil Order Police unit in Kabul because they are
subordinate ANA and ANP units that receive weapons from the national depots.
To conduct our site visits, we reviewed CSTC-A standard operating procedures and interviewed CSTC-A officials
on the methodology used to perform end use monitoring weapons inspections. To determine whether ANA and
ANP documentation matched the quantity and storage location of weapons in the depot, we conducted a two-
part sample. First, we selected a judgmental sample of serial numbers from an inventory list, and located the
weapons on the shelf at the depot. Then, we selected a judgmental sample of weapons on the shelf, and
located the serial numbers in the inventory list. We chose to select from both the shelves and documentation
to ensure a more balanced, representative sample and to maintain consistency across locations. This
consistency also helped to more clearly note the source of any discrepancies we identified, while still working
within time and security constraints at each location. We also interviewed CSTC-A advisors and ANA and ANP
representatives at each location to identify any issues affecting the accountability of weapons.
To determine whether DOD could identify the origin, shipping, and distribution of weapons from our site visits,
we cross-referenced all serial numbers with CSTC-A’s Operational Verification of Reliable Logistics Oversight
Database (OVERLORD), which is CSTC-A’s system of record for meeting weapon registration requirements, and


26See SPO-2009-001, Assessment of Arms, Ammunition, and Explosives Control and Accountability; Security Assistance;
and Sustainment for the Afghan National Security Forces, October 24, 2008.
27See DODIG-2009-075, Afghanistan Security Forces Fund Phase III-Accountability for Weapons Distributed to the
Afghanistan National Army, May 21, 2009.
28See GAO-09-267, Lack of Systematic Tracking Raises Significant Accountability Concerns about Weapons Provided to
Afghan National Security Forces, January 2009.

SIGAR 14-84-AR/ANSF Weapons Accountability                                                                       Page 14
the Security Cooperation Information Portal’s (SCIP) subsystem, the Security Cooperation Management
System, which is DSCA’s end use monitoring web/database application that tracks government-to-government
weapons. Because the ANA Central Supply Depot manages inventory through CoreIMS, a web-based inventory
management system run by a U.S. contracted company, we used the CoreIMS to cross-reference serial
numbers from our site visit.
To assess CSTC-A’s program of registration of serial numbers for all small arms provided to the ANSF, we
reconciled all available serial numbers from weapons shipped from 2010 through 2013 between OVERLORD
and SCIP/Security Cooperation Management System. We used computer-processed information to identify the
registration of serial numbers. To ensure we had a complete record of all weapons ordered and shipped during
this time period and validate the data, we reviewed final implemented foreign military sales case reports
provided to us by TACOM Life Cycle Management Command through Army Contracting Command. We
determined that insufficient data reliability created concerns about our ability to complete our objectives. To
compensate for these data reliability issues, we conducted multiple inventories from automated records to
actual weapons to reduce reliance on computer-processed data. Additional information on our data reliability
concerns is included in the body of this report. With respect to assessing internal controls and compliance with
laws and fraud risk, we reviewed CSTC-A’s compliance with section 1225 of the National Defense Authorization
Act for Fiscal Year 2010, DOD Instruction 4140.66, and DSCA’s Security Assistance Management Manual. The
results of our assessment are included in the body of this report.
To assess whether U.S. and coalition partners have accurately determined Afghanistan forces’ requirements
for weapons and planned for the potential reduction of forces from 352,000 to 228,500, we reviewed the
latest ANA and ANP Tashkil version 2 from solar year 139129 to determine historical and current weapon
requirements. We also reviewed preliminary statements from the NATO Chicago conference which plans for a
gradual drawdown of forces from 352,000 to 228,500 by 2017.
We conducted our audit work in Kabul and Kandahar, Afghanistan, and Washington, D.C., from May 2013
through June 2014, in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives. This audit was
performed under the authority of Public Law No. 110-181, as amended, and the Inspector General Act of
1978, as amended.




29   The Afghan solar year 1391 began on March 21, 2012, and concluded on March 20, 2013.



SIGAR 14-84-AR/ANSF Weapons Accountability                                                              Page 15
APPENDIX II - COMMENTS FROM THE DEPARTMENT OF DEFENSE




SIGAR 14-84-AR/ANSF Weapons Accountability              Page 16
SIGAR 14-84-AR/ANSF Weapons Accountability   Page 17
SIGAR 14-84-AR/ANSF Weapons Accountability   Page 18
                                 SIGAR’s Response to Comments from DOD
1. We acknowledge that DOD does not have the authority to require the ANSF to conduct an inventory check.
   Nevertheless, we believe it is important that DOD monitors the transferred weapons so that it complies
   with the requirements of section 1225 of the National Defense Authorization Act of for Fiscal Year 2010
   and ensures that only the ANSF uses the U.S government-funded weapons. DOD’s proposed plans to
   engage with key Afghan government leaders to request the inventory be completed, and review the
   possibility of making future weapons transfers contingent on completion of periodic inventory checks, are
   positive steps toward better weapons accountability. Accordingly, we have modified the recommendation.
   We will monitor DOD’s implementation of its plans as part of our regular recommendation follow-up
   process.

2. We acknowledge that DOD does not have the authority to recover or destroy the weapons unless the ANSF
    declared them excess. We are recommending that DOD determine what action can be taken to recover or
    destroy weapons that have already been identified jointly by the U.S. and Afghan governments as being
    excess. We have modified the recommendation to further clarify this. Because the ANSF has been
    provided weapons beyond the stated requirements, we believe those weapons need to be either recovered
    or destroyed. DOD’s assistance to the ANSF in disposing of over 35,000 damaged AK-47s and in
    identifying additional weapons that could be returned to the U.S. for disposition are positive steps toward
    better accountability and are consistent with our recommendation. We encourage DOD to continue to work
    with the ANSF and coalition partners to identify excess weapons, and, as appropriate, recover and destroy
    those weapons.




SIGAR 14-84-AR/ANSF Weapons Accountability                                                             Page 19
APPENDIX III - ACKNOWLEDGMENTS

Jeffrey Brown, Senior Audit Manager
Daniel Domke, Auditor-in-Charge
Jerome Goehring, Auditor
Sarah Kenny, Analyst
Mia Bonarski, Methodologist
Lieutenant General John F. Goodman (U.S. Marine Corps, retired), Special Advisor to the Inspector General




SIGAR 14-84-AR/ANSF Weapons Accountability                                                            Page 20
                                    This audit report was conducted
                                    under project code SIGAR-078A.




SIGAR 14-84-AR/ANSF Weapons Accountability                            Page 21
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
